January 28, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Oversight Reviews – Austin Business Mail Entry Unit –
         Austin, TX (Report Number FF-MA-11-011)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) group’s testing at the Austin Business Mail Entry Unit
(BMEU), Austin, TX (Project Number 11BR004FF005), performed November 29 and 30,
2010. The Austin BMEU is in the Rio Grande District of the Southwest Area. At the
conclusion of FY 2011, we will summarize the results for all reviews in a report to Postal
Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission which monitors and manages the Postal Service’s compliance
with SOX. The Postal Service established the FTC to conduct tests of key financial
reporting controls.

We conducted this oversight review in support of the independent public accountant’s
(IPA) reliance on Postal Service management’s testing and overall audit opinions on the
financial statements and internal controls over financial reporting. The IPA relies on the
Postal Service’s internal control testing to support the overall audit opinions.

The overall objective of our review was to evaluate whether FTC analysts properly
conducted and documented their examination of SOX financial reporting controls. To
perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from November 2010 through
January 2011 in accordance with the Quality Standards for Inspections.1


1
  These standards were last issued by the President’s Council on Integrity and Efficiency (PCIE) and the Executive
Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                             Restricted Information
Fiscal Year 2011 Financial Testing Compliance                                   FF-MA-11-011
Oversight Reviews – Austin Business Mail Entry Unit – Austin, TX


Conclusion

Based on our review of FTC’s work, we determined analysts properly conducted and
documented their examination of key SOX financial reporting controls. See Appendix A
for the results of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters management. Management will have the opportunity to formally
respond to the summary report at that time. We appreciate the cooperation and
courtesies provided by your staff. If you have any questions or need additional
information, please contact Cathy J. Jenson, audit manager, at 972-892-4456, or me at
510-285-9024.

   E-Signed by Kevin Ellenberger
 VERIFY authenticity with ApproveIt
     Friday, 28 January, 2011



for Linda J. Libician-Welch
Director, Field Financial – West

Attachments

cc:     Douglas G. Germer
        Corporate Audit and Response Management




                                                     2
                                          Restricted Information
Fiscal Year 2011 Financial Testing Compliance                                              FF-MA-11-011
Oversight Reviews – Austin Business Mail Entry Unit – Austin, TX


                                                  APPENDIX A: REVIEW RESULTS

       Site Name                                                   Austin BMEU
       Unit Cost Center Code                                       4804200251
       Location Type                                               BMEU
       Scope Period Under Review                                   October 1 through November 26, 2010
       FTC Review Program Version and Date                         November 24, 2010
       FTC Team                                                    Central



                                                                                                     Did FTC
                                                                      Did the OIG      Did FTC      adequately
                                                                         have        perform the   document its    Did the OIG agree
                                                    Did FTC have      exceptions/       step in        work            with FTC’s
                                                     exceptions/       findings      accordance     performed     exceptions/findings
                                                     findings in       that FTC          to its       and the      (or no exceptions/
FTC Review                  FTC Review Step           this step?       did not?       program?       results?          findings)?
Step#/Control#                Description              (Yes/No)        (Yes/No)        (Yes/No)      (Yes/No)           (Yes/No)
450001/104CA63,         Main Check-
                                                          No              No            Yes            Yes               Yes
104CA163                in/Receipt
450002/104CA2           Mail Verification                 No              No            Yes           Yes                Yes
450003/104CA65          Placarding/Induction              No              No            Yes           Yes                Yes
                        End-of-Day
450004/104CA66                                            No              No            Yes            Yes               Yes
                        Reconciliation
450005/104CA06          SOX Certification                 No              No            Yes           Yes                Yes
                        Finalizing Postage
450006/104CA1                                             No              No            Yes            Yes               Yes
                        Statements




                                                                       3
                                                            Restricted Information
